March 8, 2021
BY ELECTRONIC FILING AND FEDEX
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Re: No. 20-1163, Gloucester County School Board v. Gavin Grimm
Dear Mr. Harris:
I represent the Gloucester County School Board, the petitioner in this case. I
write to inform you that petitioner consents to the filing of all amicus briefs related
to the petition for certiorari.
Thank you for your assistance.
Sincerely,
/s/ Gene C. Schaerr
Gene C. Schaerr
cc: Respondent’s Counsel of Record (by email)

SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
www.Schaerr-Jaffe.com

